<html>
<title> - ARE WE LOSING THE SPACE RACE TO CHINA?</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








                 ARE WE LOSING THE SPACE RACE TO CHINA?

=======================================================================

                                HEARING

                               BEFORE THE

                         SUBCOMMITTEE ON SPACE

              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           September 27, 2016

                               __________

                           Serial No. 114-95

                               __________

 Printed for the use of the Committee on Science, Space, and Technology


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




       Available via the World Wide Web: http://science.house.gov






                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

22-564PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001














              COMMITTEE ON SCIENCE, SPACE, AND TECHNOLOGY

                   HON. LAMAR S. SMITH, Texas, Chair
FRANK D. LUCAS, Oklahoma             EDDIE BERNICE JOHNSON, Texas
F. JAMES SENSENBRENNER, JR.,         ZOE LOFGREN, California
    Wisconsin                        DANIEL LIPINSKI, Illinois
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
RANDY NEUGEBAUER, Texas              SUZANNE BONAMICI, Oregon
MICHAEL T. McCAUL, Texas             ERIC SWALWELL, California
MO BROOKS, Alabama                   ALAN GRAYSON, Florida
RANDY HULTGREN, Illinois             AMI BERA, California
BILL POSEY, Florida                  ELIZABETH H. ESTY, Connecticut
THOMAS MASSIE, Kentucky              MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            KATHERINE M. CLARK, Massachusetts
RANDY K. WEBER, Texas                DON S. BEYER, JR., Virginia
JOHN R. MOOLENAAR, Michigan          ED PERLMUTTER, Colorado
STEVE KNIGHT, California             PAUL TONKO, New York
BRIAN BABIN, Texas                   MARK TAKANO, California
BRUCE WESTERMAN, Arkansas            BILL FOSTER, Illinois
BARBARA COMSTOCK, Virginia
GARY PALMER, Alabama
BARRY LOUDERMILK, Georgia
RALPH LEE ABRAHAM, Louisiana
DARIN LaHOOD, Illinois
WARREN DAVIDSON, Ohio
                                 ------                                

                         Subcommittee on Space

                     HON. BRIAN BABIN, Texas, Chair
DANA ROHRABACHER, California         DONNA F. EDWARDS, Maryland
FRANK D. LUCAS, Oklahoma             AMI BERA, California
MICHAEL T. McCAUL, Texas             ZOE LOFGREN, California
MO BROOKS, Alabama,                  ED PERLMUTTER, Colorado
BILL POSEY, Florida                  MARC A. VEASEY, Texas
JIM BRIDENSTINE, Oklahoma            DONALD S. BEYER, JR., Virginia
STEVE KNIGHT, California             EDDIE BERNICE JOHNSON, Texas
WARREN DAVIDSON, Ohio
LAMAR S. SMITH, Texas

















                            C O N T E N T S

                           September 27, 2016

                                                                   Page
Witness List.....................................................     2

Hearing Charter..................................................     3

                           Opening Statements

Statement by Representative Brian Babin, Chairman, Subcommittee 
  on Space, Committee on Science, Space, and Technology, U.S. 
  House of Representatives.......................................     4
    Written Statement............................................     6

Statement by Representative Donna Edwards, Ranking Minority 
  Member, Subcommittee on Space, Committee on Science, Space, and 
  Technology, U.S. House of Representatives......................     8
    Written Statement............................................    10

Statement by Representative Lamar S. Smith, Chairman, Committee 
  on Science, Space, and Technology, U.S. House of 
  Representatives................................................    12
    Written Statement............................................    14

                               Witnesses:

The Hon. Dennis C. Shea, Chairman, U.S.-China Economic and 
  Security Review Commission
    Oral Statement...............................................    17
    Written Statement............................................    19

Mr. Mark Stokes, Executive Director, Project 2049 Institute
    Oral Statement...............................................    36
    Written Statement............................................    38

Mr. Dean Cheng, Senior Research Fellow, Asian Studies Center, 
  Heritage Foundation
    Oral Statement...............................................    44
    Written Statement............................................    46

Dr. James Lewis, Senior Vice President and Director, Strategic 
  Technologies Program, Center for Strategic & International 
  Studies
    Oral Statement...............................................    56
    Written Statement............................................    58

Discussion.......................................................    64

             Appendix I: Answers to Post-Hearing Questions

The Hon. Dennis C. Shea, Chairman, U.S.-China Economic and 
  Security Review Commission.....................................    80

Mr. Mark Stokes, Executive Director, Project 2049 Institute......   100

Mr. Dean Cheng, Senior Research Fellow, Asian Studies Center, 
  Heritage Foundation............................................   101

Dr. James Lewis, Senior Vice President and Director, Strategic 
  Technologies Program, Center for Strategic & International 
  Studies........................................................   113

            Appendix II: Additional Material for the Record

Statement submitted by Representative Eddie Bernice Johnson, 
  Ranking Member, Committee on Science, Space, and Technology, 
  U.S. House of Representatives..................................   122

 
                 ARE WE LOSING THE SPACE RACE TO CHINA?

                              ----------                              


                      TUESDAY, SEPTEMBER 27, 2016

                  House of Representatives,
                              Subcommittee on Space
               Committee on Science, Space, and Technology,
                                                   Washington, D.C.

    The Subcommittee met, pursuant to call, at 10:06 a.m., in 
Room 2318 of the Rayburn House Office Building, Hon. Brian 
Babin [Chairman of the Subcommittee] presiding.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairman Babin. The Subcommittee on Space will come to 
order.
    Without objection, the Chair is authorized to declare 
recesses of the Subcommittee at any time, and welcome to 
today's hearing titled ``Are We Losing the Space Race to 
China?''
    I now recognize myself for five minutes for an opening 
statement.
    After the Columbia accident, President George W. Bush 
sought to revitalize our nation's space program by challenging 
NASA to return to the Moon and then chart a course to Mars. 
Steady advances were made towards those goals with strong 
Congressional support for the Constellation program.
    NASA made solid progress towards the development of the 
Ares I and Ares V vehicles. The Commercial Cargo program was 
initiated and the International Space Station neared 
completion.
    All of that success came to a screeching halt when 
President Obama was sworn in. His fiscal year 2010 budget 
request slashed well over a billion dollars from the 
exploration budget.
    He then tasked a blue ribbon commission to evaluate NASA's 
current plans. The panel found that the original plan was not 
executable, something that should have come as no surprise 
given the Obama Administration's budget cut. President Obama 
cancelled Constellation in its next budget request, redirected 
even more money to Earth Science to support its radical 
political agenda, and then guaranteed dependence on Russia for 
access to space for an extended period of time, which is still 
ongoing.
    So what does this have to do with China? Well, this vacuum 
of leadership has led not only to extended dependence on Russia 
for access to space, but also facilitated the ascendance of 
China as a leading spacefaring nation. China has capitalized on 
this Administration's weakness by offering partnerships with 
other nations on missions, like a return to the Moon, which the 
United States chose to walk away from.
    Rather than charting a bold course that inspires the 
international community to engage with us, the Obama 
Administration has alienated historic allies and potential 
partners alike. Only because of Congress is NASA building deep 
space exploration capabilities.
    Unfortunately, the administration refuses to let NASA show 
any detailed plans for a Journey to Mars beyond a PowerPoint 
chart. China, on the other hand, has demonstrated a willingness 
to answer calls for collaboration with open arms. This has 
clearly strengthened their soft power and international 
standing.
    China's near-term plans for space exploration continue 
their nation's philosophy of steady and measured progress, but 
their long-term goals are very ambitious. They have already 
placed astronauts in orbit five times, launched a space 
station, and placed a rover on the Moon. They have announced 
plans for a larger space station, a first-of-a-kind mission to 
the far side of the Moon, and potentially a manned mission to 
the Moon in the 2030s.
    The Administration's abdication of leadership in space 
exploration has significant consequences. If we do not lead, 
someone else will. Leadership in space means security, 
technological prowess, and innovation. Our future prosperity 
depends on our leadership in space. If we do not lead, we will 
not set the terms and condition for those who follow.
    When the United States explores and embarks on adventures 
of discovery, we take with us our ideologies and our 
principles. I, for one, want to ensure that space becomes a 
domain of freedom and liberty, not autocracy and oppression. If 
we do not lead, we will weaken our partnerships. I want 
countries to embark with us into the cosmos, rather than team 
with China as a last resort.
    The Obama Administration has already told the Europeans 
that they are not interested in their Moon Village proposal. 
They've tried to walk away from their commitments to the 
Germans on SOFIA and actually abandoned ExoMars. International 
partners have memories. They also have options.
    China is building a resume of accomplishments that 
positions them as a viable alternative. Given their recent 
provocative actions in the South China Sea, and the 
longstanding oppression of their own people, we should all be 
wary of perpetuating conditions that push other nations to 
partner with China.
    Furthermore, we should ensure that any U.S. cooperation 
with China in space is mutually beneficial, appreciates the 
risk of technology exploitation, and fits into a larger 
strategic perspective that recognizes Chinese provocation.
    Aside from recent tensions in the South China Sea, China 
also threatens our nation's cyber security. Couple that with 
their irresponsible antisatellite tests, one is hard-pressed to 
find a reason to reward their behavior with increased 
cooperation. We may not be in a space race with China. We may 
not even be competing with China in space, but the strategic 
choices we make clearly impact China's space capabilities, 
something that we should all pay attention to given that 
China's civil space activities are inseparable from their 
military.
    I look forward to our witnesses' testimony today, and I 
thank them for appearing.
    [The prepared statement of Chairman Babin follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    Chairman Babin. I now recognize the Ranking Member, the 
gentlewoman from Maryland, for an opening statement.
    Ms. Edwards. Good morning, and welcome to our distinguished 
witnesses today. I want to thank Chairman Babin for calling 
this hearing.
    You know, on October 4, 1957, 59 years ago next week, the 
Soviet Union stunned the world when it launched Sputnik I into 
outer space. That launch, marking the first time a manmade 
satellite was placed into Earth orbit, caught Americans by 
surprise and indeed sparked fears that the Soviet Union might 
also be capable of sending missiles with nuclear weapons from 
Russia to the United States.
    Not long after, Congress passed legislation establishing 
the National Aeronautics and Space Administration (NASA). The 
agency's budding space program became important in America's 
efforts to demonstrate U.S. preeminence and technological 
prowess over the Soviet Union.
    To that end, President John F. Kennedy stood before 
Congress on May 25, 1961 proposing that ``this nation should 
commit itself to achieving the goal before this decade is out 
of landing a man on the Moon and returning him safely to the 
Earth.''
    Following a series of interim achievements that 
demonstrated NASA's ability to dock and perform extravehicular 
activities in space, the space race ended with the successful 
July 20, 1969, Apollo 11 landing of the first humans on the 
Moon. How different would today's world be if NASA had not 
responded to President Kennedy's challenge?
    And now, almost 50 years since that historic event, some 
are asking if we are again in a space race, but this time with 
China. Two weeks ago, China successfully placed in orbit its 
Tiangong-2 experimental orbiting space lab, and that 
accomplishment comes on the heels of China's landing a robotic 
rover on the Moon, with plans announced to do the same on Mars.
    So should we be concerned that China may be closing the gap 
in spaceflight capabilities? Well, today's panel is well 
qualified to address this question. In particular, I look 
forward to hearing about China's pace of progress in exploring 
space and how our track record fares in comparison.
    I'd also like to know if the recent success of China's 
space program is due to its ability to stay on course. In 
addition, I'd like to get the witnesses' views on what they 
believe the goals and objectives of the Chinese space program 
are and what impacts other domestic priorities have on the 
conduct of their space activities. So I look forward to hearing 
the panel's views on whether the U.S. should seek greater 
cooperation with other space-faring nations, including China, 
and what challenges we face if we choose to do so.
    And just in closing, and in reference to the Chairman's 
statement, you know, I think that there's a lot of blame that 
can be passed along Pennsylvania Avenue from one end to the 
next for the uncertainty, for the contrary priorities and 
confusing priorities across Republican and Democratic 
Presidents and Members of Congress, and in my very short eight 
years on this Subcommittee and on this Committee, I've 
witnessed that conflict in priorities, and I think that as 
Democrats and Republicans here in the House and the Senate that 
we would do our nation well and our nation's space program well 
for the future to make sure that we set down priorities that 
put us all on the same page when it comes to our priorities for 
space exploration, engage our international partners, and 
commit the resources across Presidents, Republicans and 
Democrats that it's going to take to get the job done.
    And so I look forward to hearing from our panel today about 
those and other priorities, and with that, I yield the balance 
of my time.
    [The prepared statement of Ms. Edwards follows:]
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
        
    Chairman Babin. Thank you, Ms. Edwards.
    And I now recognize the Chairman of our full Committee, 
Chairman Smith.
    Chairman Smith. Thank you, Mr. Chairman, and thanks to our 
witnesses for being here today as well.
    Just this month, China launched its second experimental 
space station. While it's just a single module and is smaller 
than the International Space Station, it signifies continued 
Chinese progress and persistence.
    The Soviets flew their first large, modular space station, 
Mir, 3-1/2 decades after the first cosmonaut went to space. 
China plans to have their own slightly smaller equivalent to 
the Mir space station in operation by the mid-2020s. This is 
roughly two decades after China launched its first astronaut 
into orbit.
    Meanwhile, the Obama Administration's cuts to exploration 
and disruption of exploration planning has eliminated our 
opportunities to return to the Moon, and the Administration has 
no real plan for landing people on Mars. China continues to 
make progress. We cannot resign ourselves to the remembrance of 
past achievements. It is time for the United States to reassert 
its leadership.
    For over 50 years, the United States has been committed to 
the peaceful use and exploration of outer space. Our 
philosophical principles of freedom, the rule of law, and 
transparency are evident in the actions we take. The United 
States shares scientific data and findings, promotes 
international cooperation, and maintains international peace 
and security in outer space. The world has benefited from U.S. 
space leadership.
    The success of China's space program will be different. 
China does not hold the same values of our society. Unlike the 
United States, China does not have distinct military and 
civilian space programs. The Chinese military is functionally 
in charge of all space activities, with the Chinese National 
Space Agency responsible for international affairs and 
intergovernmental agreements. China already has demonstrated a 
strong disregard for interests of other countries in outer 
space through its antisatellite tests. Here on Earth, illegal 
incursions into the South China Sea represent a blatant 
disregard for the international rule of law. Will their 
disregard of international law continue to extend into outer 
space?
    When China launched its first person into space in 2003, it 
caught the world's attention. Over the years, our focus has 
waned and now China's accomplishments in space have become 
commonplace. We cannot ignore Chinese achievements and become 
complacent.
    Just yesterday, the New York Times featured a large article 
on the largest single dish radio telescope, which is being 
built in China. China is making steady progress in all fields 
of exploration, including astronomy.
    If the United States fails to reassert its leadership, 
China's rise may undermine U.S. plans to transfer low-Earth 
orbit habitation and human spaceflight from a governmental 
activity to a sustainable economic activity undertaken by the 
private sector. China stands to fill another void left by this 
Administration's disinterest in maintaining leadership in 
exploration.
    By abandoning plans to return to the Moon, the 
administration invited the rise of China as a leader in space. 
By reallocating funding from exploration to Earth science, the 
administration has put our leadership in space exploration at 
risk. Our allies stand ready to partner in an ambitious 
exploration program. Unfortunately, the current administration 
won't allow NASA to propose one.
    Thank you, Mr. Chairman, and I yield back.
    [The prepared statement of Chairman Smith follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    Chairman Babin. Thank you. I appreciate it, Mr. Chairman.
    Okay. Now we'll move on to--I don't see our Ranking Member 
here so I want to introduce our witnesses at this time.
    The first one is the Hon. Dennis C. Shea, our first witness 
today. He is Chairman of the U.S.-China Economic Security 
Review Commission. He was reappointed by Senate Majority Leader 
Mitch McConnell for a term expiring December 31st, 2016, and 
Mr. Shea's government service began in 1988 when he joined the 
Office of Senate Republican Leader Bob Dole as Counsel and 
subsequently becoming the Senator's Deputy Chief of Staff in 
the Office of the Senate Majority Leader. He's an attorney with 
more than 25 years of experience in government, in public 
policy, and the Founder of Shea Public Strategies LLC, a public 
affairs firm based in Alexandria, Virginia. Mr. Shea received 
his J.D. and an M.A. in history and a B.A. in government from 
Harvard University.
    Mr. Mark Stokes, our second witness today, Executive 
Director of the Project 2049 Institute. Previously, he was Vice 
President and Taiwan Country Manager for Raytheon International 
and later, Founder and President of Quantum Pacific 
Enterprises, an international consulting firm. Mr. Stokes has 
also served as Team Chief and Senior Country Director of the 
People's Republic of China, Taiwan and Mongolia in the Office 
of Assistant Secretary of Defense for International Security 
Affairs. He holds a B.A. from Texas A&M University and graduate 
degrees in international relations and Asian studies from 
Boston University and the Naval Postgraduate School. Thank you 
for being here.
    Mr. Dean Cheng, our third witness today, Senior Research 
Fellow in the Asian Studies Center at the Heritage Foundation. 
Prior to joining the Heritage Foundation, he was a Senior 
Analyst with the China Studies Division at the Center for Naval 
Analysis from 2001 to 2009. He specialized on Chinese military 
issues with a focus on Chinese military doctrine and space 
capabilities. He has written a number of papers and book 
chapters examining various aspects of Chinese security affairs 
including the Chinese military doctrine, the military and 
technological implications of the Chinese space program, and 
Chinese concepts of political warfare. Mr. Cheng earned a 
bachelor's degree in politics from Princeton University. Thank 
you for being here.
    And then our final witness today is Dr. James Lewis, Senior 
Vice President and Program Director for the Strategic 
Technologies program at the Center for Strategic and 
International Studies, or CSIS. Prior to joining CSIS, Dr. 
Lewis worked at the Departments of State and Commerce as a 
Foreign Service Officer and as a member of the Senior Executive 
Service. His government experience included work on a range of 
political, military and Asian security issues as a negotiator 
on conventional-arms transfers and advanced military 
technology, and in developing policies for satellite exports, 
encryption, and the internet. Dr. Lewis received his Ph.D. from 
the University of Chicago.
    So I now recognize Mr. Shea for five minutes to present his 
testimony. Mr. Shea.

        TESTIMONY OF THE HON. DENNIS C. SHEA, CHAIRMAN,

                    U.S.-CHINA ECONOMIC AND

                   SECURITY REVIEW COMMISSION

    Mr. Shea. Well, thank you, Chairman Babin, Ranking Member 
Edwards, Chairman Smith, and the members of the Subcommittee 
for the opportunity to testify before you today.
    I have to note these are my own personal views and not 
necessarily the judgments of the U.S.-China Commission though I 
draw heavily from the Commission's work.
    Examining China's space program has never been more 
crucial. Over the next six years, China is poised to take major 
steps that will draw significant attention to its efforts in 
space and potentially set the stage for a larger leadership 
role.
    Specifically, China plans to collect soil samples from the 
Moon and return them to Earth in 2017, send an unmanned 
spacecraft to land on the Moon's dark side before 2020, send a 
Rover to Mars in 2020, and complete a space station in 2022.
    In this testimony, I want to briefly address three main 
points: the key characteristics of China's space program, the 
contributions it provides in economical, political and 
diplomatic terms, and the implications it presents for future 
U.S. leadership in space. The military aspects of China's space 
program are covered more fully in the Commission's report of 
last year.
    China's climb to its current status is one of the world's 
top space powers as the result of decades of leadership 
attention and steady investment. It has also involved a 
significant effort to buy or otherwise obtain technologies from 
foreign sources, especially the United States. In particular, 
China's large-scale state-sponsored theft of intellectual 
property through cyber espionage has no doubt helped fill 
knowledge gaps in its space R&D.
    China's space initiatives have progressed as a much slower, 
more deliberate and more methodical pace than those of the 
United States. For example, the United States achieved manned 
spaceflight for the first time in 1961 and the Moon landing in 
1969, whereas China conducted its first manned spaceflight in 
2003 and may not plan to land on the Moon until the 2030s, as 
revealed just this year. However, China is also pursuing 
multiple large-scale efforts at the same time rather than the 
more sequential approach taken by the United States, making it 
difficult to compare the two directly.
    As pointed out by Chairman Smith, China does not have 
distinctly separate military and civilian space programs as the 
United States does. Rather, China's military controls the 
majority of the country's space assets and operations and 
state-owned defense conglomerates are the key actors in the 
commercial space sector. Thus, even apparently civilian 
projects such as space exploration can directly support the 
development of PLA, space, counter-space, and conventional 
capabilities. Beijing also provides little transparency 
regarding its intentions in space, for example, does not 
release detailed budget information on its space activities.
    China's space program has furthered its leaders strategic 
ambitions. China's advancements in space, specifically its 
plans for a space station, lunar exploration, and Mars 
exploration provide domestic legitimacy and international 
prestige.
    China's global commercial efforts in areas such as space 
launch services, satellite exports and satellite application 
technologies provide revenues and are expected by policymakers 
to spark spin-off developments in key economic sectors. Both 
space exploration and commercial activities open the door to 
China's participation in key international and bilateral 
initiatives, which I list in my written testimony.
    China has sought to work with advanced space powers where 
possible to improve its capabilities, most notably the European 
Space Agency. China has seen its greatest success in marking 
commercial space services to developing countries, which are 
less likely to demand advanced technologies subject to U.S. 
ITAR restrictions.
    China's space program has economic implications for the 
United States in the areas of commercial satellite and spaced 
launch services, downstream satellite navigation industries, 
and the potential for European countries and their industries 
to pursue non-U.S. technologies in order to reach the Chinese 
market. The full deployment of China's BeiDou satellite 
navigation system plans to provide global service by 2020, and 
the introduction of policies to promote its adoption in 
downstream industries may affect U.S. firms and these 
industries in the future.
    On the political side, China's activities have implications 
for U.S. leadership and international cooperation efforts in 
space. If the United States has a Mars program but no space 
station and no lunar program in the near future while China has 
all three, China will be able to dictate participation in 
manned spaceflight as well as in scientific projects involving 
its space station. China has already signed agreements with the 
U.N. Office for Outer Space Affairs and the Russian and 
European space agencies regarding space station cooperation.
    Although the United States is prepared to maintain its 
leadership in the space domain, China's highly controlled, 
methodical and comprehensive approach will open up 
opportunities for Beijing in the near term.
    Despite the fact that China's accomplishments and 
investments in space have been far outpaced by our own, it will 
likely appear over the next six years that China is reaching 
major milestones and gaining ground. Meanwhile, the United 
States will be focused on longer-term exploration projects and 
observers will be well aware of the planned deorbiting of the 
International Space Station in 2024. This underscores how 
important it is for the United States to see through its long-
term space exploration projects so this apparent disparity does 
not continue.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Shea follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
      
    Chairman Babin. Thank you, Mr. Shea.
    I now recognize Mr. Stokes for five minutes to present his 
testimony. Mr. Stokes.

                 TESTIMONY OF MR. MARK STOKES,

                      EXECUTIVE DIRECTOR,

                     PROJECT 2049 INSTITUTE

    Mr. Stokes. Thank you. Mr. Chairman, Members of the 
Subcommittee. It's an honor and privilege to be able to have 
this opportunity to come and present before you today.
    I'd like to make three points. The testimony should be able 
to speak for itself, and I can provide more details in the 
question-and-answer session. But I'd like to make three points 
to sort of emphasize various aspects of developments in China's 
space capabilities.
    Number one, it's important to draw upon and augment what 
Mr. Shea mentioned about the difficulty between distinguishing 
military capabilities and civilian capabilities in China's 
space program, and this is part of a conscious policy referred 
to these days as military-civilian fusion--MCF for short. There 
is a long history behind military-civilian fusion dating back 
perhaps to the 1980s. Dong Zhou Ping, he had a 16-character 
slogan in which military programs or military projects or 
civilian projects and investments were intended to support each 
other with the military taking priority. The term previously 
was referred to in English as integration so the military 
integration, not military-civilian fusion, presumably to imply 
a greater degree of cooperation between the two sectors.
    It is difficult to distinguish military and civilian 
programs but one can at least make an attempt to identify an 
end user or sponsor, in other words, who is actually managing 
the program. There are some aspects of China's space program 
that are managed by civilian organizations, and then there are 
some military end users. This was not always the case. When 
China embarked upon their space program in the beginning, there 
was very much of even more of a blurring. Over the last decade 
or 10, 15 years, there's been an increasing effort with PLA 
developing dedicated military systems, particularly, for 
example, remote sensing programs, and there also of course are 
other organizations, civilian organizations, that have their 
own systems, say, for example, there's an ocean organization 
under the state council that's important. But, you know, part 
of this has to do with both spin-on and spin-off capabilities 
in space.
    The second point I'd like to make is related to 
technological progresses being made, particularly in the 
research, development and acquisition system. This is probably 
where China has made the most significant achievements, not 
necessarily in the technology itself but in the ability to 
mobilize resources and to organize in a very progressive and 
reasonable fashion in terms of increasing capabilities.
    As mentioned in the written testimony, there is sort of a 
stage-phase pathway to fielding systems ranging from 
preliminary research or basic research to concept development, 
to engineering, research and development, then all the way up 
to testing and then fielding. It's important to understand 
where each individual program is in the cycle to get a feel for 
how far along that they are. There's a pretty wide body of 
information that outlines the various programs all the way from 
satellites, remote sensing satellites, communication 
satellites, guidance navigation satellites, significant 
increasingly diverse set of launch vehicles that are being 
fielded to include starting last year a solid-fuel launch 
vehicle, one of their first to be deployed and operationalized. 
There's significant investments in the counter-space systems to 
include the ability to be able to track and surveil space 
assets, and of course, the manned space program. So there are 
significant capabilities that are being developed in this 
field.
    There are three goals, to put it simply, in my view. One of 
the key goals of course is political, political legitimacy. One 
has to remember that ultimately the People's Republic of China 
is a one-party system, that the Chinese Communist Party seeks 
legitimacy in various ways and which the space program is 
certainly one of these. There are military goals, and again, 
there's a wide body of literature that outlines these goals and 
capabilities. And then there are economic goals as well.
    And then finally, directly addressing the issue of the 
Space Race. It's difficult to define exactly what the Space 
Race is, and it's not even clear if we're even competing or we 
even view space as an area of competition with the People's 
Republic of China. And there may be different playing fields. 
For example, the political playing field, I think, is 
significant. But regardless from a technology perspective, 
Beijing and authorities in Beijing are closing the technology 
gap. It's my view that the United States technologically is 
likely to maintain advantage, bearing in mind that I'm not an 
expert on U.S. space systems, given the United States makes 
proper investments in our space capabilities.
    In terms of future and goals in terms of what the United 
States should do in order to understand this better, in terms 
of defining what the competition would be, there's 
technological aspects. There's the ability to be able to apply 
capabilities that are being deployed, and then some comparison 
of the ability to mobilize resources in terms of personnel, 
budgets, and then organization.
    And with that, I will save the rest of my comments for the 
question-and-answer session.
    [The prepared statement of Mr. Stokes follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
    Chairman Babin. Thank you, Mr. Stokes.
    Now I recognize Mr. Cheng for five minutes to present his 
testimony.

                  TESTIMONY OF MR. DEAN CHENG,

                    SENIOR RESEARCH FELLOW,

                     ASIAN STUDIES CENTER,

                      HERITAGE FOUNDATION

    Mr. Cheng. Chairman Babin, Ranking Member Edwards, Chairman 
Smith, distinguished Members of the Committee, my name is Dean 
Cheng. I'm the Senior Research Fellow for Chinese Political and 
Security Affairs at the Heritage Foundation but I'd like to 
emphasize that my comments today are my own.
    Directly to the point of whether or not there is a space 
race underway between the United States and China, I would like 
to suggest that there is not a space race per se but rather 
that there is a race between the United States and China on 
multiple different aspects and fronts, political, diplomatic, 
security, all of which have a space component, and that is the 
Chinese perspective because the Chinese view space as being an 
essential part of the larger effort to raise China's 
comprehensive national power.
    Comprehensive national power is how the Chinese basically 
look at various countries including themselves, how they rank 
with each other how capable they are. It includes economic, 
diplomatic, political, cultural, science and technology, as 
well as military aspects, and from the Chinese perspective, 
space development contributes to every one of those elements of 
comprehensive national power.
    With regards to the economy, space is seen as a pivotal 
technology. Because it is so dense, as the Chinese put it, in 
science and technology, in high technology, because it touches 
on such aspects as advanced materials, telecommunications, 
computing, and above all, systems engineering and systems 
integration. The Chinese see an advancing space capability 
that's almost like a locomotive that will pull along other 
parts of the Chinese economy. The space workforce in particular 
is seen as building expertise in key areas including systems 
integration, and we have seen key leaders in China's space 
industry transfer to areas such as the Commercial Aircraft 
Corporation, China's effort to build their own wide-bodied 
aircraft in the belief that their experience in the space 
sector can be translated into building Chinese challengers to 
Boeing and Airbus.
    We also see this in terms of the Chinese folks on 
indigenous innovation. The perception is that China's ability 
to field a full-blown space program will spark innovation in 
other areas, other key subtechnologies.
    In addition, of course, we also see the Chinese using space 
in terms of their political efforts, and this is both domestic 
and foreign relations. Space is a source of prestige, and 
prestige in this case supports both the legitimacy of the 
Chinese Communist Party but also the prestige of the People's 
Republic of China. For example, space achievements are often 
described as CCP achievements, and so China's space program, 
which grew out of the so-called two bombs, one satellite 
program, not only is a reflection of the relationship the 
Chinese view space with regards to key strategic weapons but 
also as a means again of promoting innovation. We also see the 
expectation that economic development through space will 
basically again help spark a revival of the Chinese economy, 
which right now seems to be slowing down.
    With regards to foreign relations, again, we see space 
being used as a key diplomatic tool in both the bilateral and 
the multilateral aspects, bilaterally, in terms of sales of 
satellites to such states as Venezuela, Bolivia, Bangladesh, 
Pakistan, all of whom are key sources of raw materials that 
help power the Chinese economy, but also at the multilateral 
level, again such as the Asia-Pacific Space Cooperation 
Organization, which brings in Thailand, Malaysia, Mongolia. 
These are not major space powers per se, but they are key 
neighbors of the People's Republic of China, and they are using 
APSCO as a diplomatic tool.
    Of course, it is implicit that the ability to maintain 
space-based surveillance and to put payloads into orbit 
obviously affects Taiwan, obviously affects Japan. I would also 
suggest to the Committee that when, not if, the Chinese are 
able to go to the Moon, first with a robotic lander on the far 
side, to think about how you will communicate with something on 
the far side of the Moon. In order to do that, it will require 
the establishment of a lunar satellite, satellites that will 
orbit the Moon. The implications for military and security 
aspects are self-evident. But also, the day that the Chinese 
land a human being on the Moon will be an enormous impact on 
the United States because how often have we heard we've gone to 
the Moon, why haven't we, you know, solved the common cold, why 
haven't we solved traffic problems in downtown DC. The reality 
is that the day the Chinese are able to do the same thing is 
the day that American uniqueness will be openly challenged and 
Chinese prestige will be put on the same level as that of the 
United States.
    Thank you very much, members of the Committee, for your 
time.
    [The prepared statement of Mr. Cheng follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
    
    Chairman Babin. Thank you very much, Mr. Cheng.
    I now recognize Dr. Lewis for five minutes to present his 
testimony.

                 TESTIMONY OF DR. JAMES LEWIS,

              SENIOR VICE PRESIDENT AND DIRECTOR,

                STRATEGIC TECHNOLOGIES PROGRAM,

                     CENTER FOR STRATEGIC &

                     INTERNATIONAL STUDIES

    Dr. Lewis. Mr. Chairman, I'd like to thank the Committee 
for the opportunity to testify on whether we're in a space race 
with China, but it's also useful to ask if we have the right 
strategy for space exploration in what's become a very 
different international environment.
    A comparison of the U.S. and Chinese space programs 
suggests each reflects different goals rather than being a 
race. China's goals are political. Ours are scientific. There 
is a degree of parallelism between the U.S. and Chinese efforts 
but with the exception of human space exploration, the two 
programs are not really comparable.
    In most areas, the United States remains unmatched in its 
space capabilities. Our unmanned space exploration program has 
no equal in its successes, but when we talk about a space race, 
we're talking about human spaceflight, the area of activity 
where the United States is weakest. The classic space race 
between the United States and the Soviets centered on human 
spaceflight and landing on the Moon. Each side tried to surpass 
the exploits of the other. I think it's now safe to say that 
the United States does not consider itself in a space race with 
China. The United States is focused on the manned exploration 
of Mars, and from a scientific perspective, going to Mars makes 
sense, but it doesn't make sense from a strategic perspective.
    China does not talk about space races but there is an 
unavoidable comparison and competition with the United States. 
China's focus in space exploration is on human spaceflight and 
its leaders have a great interest in landing on the Moon.
    In the United States and Soviet space race, the objectives 
are prestige and global influence. Having won the race, the 
United States largely lost interest in space. In contrast, 
China uses its space programs to gain political advantage. Its 
human space programs serve important domestic and foreign 
policy purposes.
    Human spaceflight was a central part of the Cold War 
contest. The assumption was that the system that won the space 
race was superior. The competition between the U.S. and Chinese 
systems is not as clear-cut, but the rest of the world thinks 
we're in a competition with China and that space exploration is 
a part of this.
    We should be clear that the Chinese space program largely 
duplicates U.S. and Soviet exploits from the 1970s and 1980s. 
What we do not want, however, is a tortoise-and-hare scenario 
where a slow-moving China passes the United States. American 
performance in space is an important element in how China will 
decide between confrontation or cooperation. We do not want a 
situation where China's leaders think, as a PLA general said 
last year, that the United States has ``great capability, no 
will.''
    The future of space exploration requires the United States 
to make difficult choices. These choices will determine the 
outcome of any space race with China. A strong case can be made 
that the United States would be best served by human 
spaceflight programs that focus on incremental and achievable 
goals. We're in a very difficult international situation, and 
our space programs need to adjust to this.
    I thank the Committee, and look forward to your questions.
    [The prepared statement of Dr. Lewis follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
   
    
      
    Chairman Babin. Thank you very much, Dr. Lewis.
    I thank all the witnesses for their testimony. I now 
recognize myself for five minutes.
    Mr. Cheng, a July article in the Wall Street Journal 
reported that the Director General of the European Space Agency 
was open to the idea of cooperating with China onboard the 
International Space Station. China's long-term lunar plans are 
also consistent with Europe's lunar village concept. President 
Obama cancelled the Constellation program that would have 
returned the United States to the Moon and take astronauts onto 
Mars. In a speech announcing the cancellation, he argued 
against returning to the Moon by stating ``We've been there 
before,'' rather arrogantly, I thought.
    The NASA Administrator has stated the U.S. does not have to 
be the country that says we're going, follow us, we're all 
going back to the surface of the Moon, but it's just that the 
United States has no intention of leading that effort. We will 
support and be along with anybody that goes.
    The National Academy of Sciences' report, ``Pathways to 
Exploration,'' indicated that returning to the Moon would offer 
significant advantages as an intermediate step to Mars. It 
appears as though the Administration's policies are pushing our 
allies to cooperate with China rather than with us. 
Furthermore, it appears as though China may be adopting a more 
robust architecture for future exploration than the one 
proposed by this Administration.
    What impact does that have on our nation's economic 
competitiveness, international standing, and national security?
    Mr. Cheng. Sir, to begin with, it should be noted that the 
previous head of the European Space Agency opined that it would 
be very delighted to work with China on manned space literally 
within a week of the Chinese ASAT test in 2007, widely 
considered to be the single worst regenerating event in space. 
So I think it is safe to say that the current head of the 
European Space Agency apparently is continuing a policy of 
basically being open to Chinese behavior, cooperating with 
China regardless of Chinese behavior. I would suggest that the 
idea that we do not need to lead in the process of going to the 
Moon is consisting with a leading-from-behind philosophy that 
this Administration has enunciated with regards to terrestrial 
objectives as well.
    But I would also emphasize here, sir, that the most 
important consideration is that China has been attempting to 
push the limits of its sovereignty into international common 
spaces. As I said in my spoken testimony, Chinese behavior is 
not about space, it is about terrestrial, but what we see in 
the oceans, what we see in outer space, what we see in 
cyberspace is China pushing its position into all of these 
international spaces, and if the United States does not lead, 
we will find ourselves operating in the Chinese framework.
    Chairman Babin. Thank you very much.
    And now, Mr. Stokes, Mr. Shea's testimony highlights that 
the Chinese military and civil space programs are tightly 
intertwined. Some of you have already alluded to this. But I 
would like to hear it again. If not the same organization, 
they're tightly intertwined.
    Some argue for increased cooperation with China on civil 
space. Could this be done without directly benefiting Chinese 
military capabilities?
    Mr. Stokes. The short answer, it's possible, but I would 
recommend doing it very, very carefully.
    Chairman Babin. Amen. Okay. Thank you. Thank you very much.
    And now, current U.S. plans called for a crewed mission to 
Mars in the 2030s, and from what we can tell, the Chinese plan 
to land a crew on the Moon in the same time frame. U.S. space 
exploration efforts have been characterized by uncertainty 
lately, particularly in the wake of the Administration's 
cancellation of Constellation, that would have returned the 
United States to the Moon no later than 2020 if the 
Administration had not raised NASA's exploration budget. 
Conversely, China has been fairly successful in accomplishing 
the goals that it sets for its space program, and Mr. Shea, in 
15 years, could we find ourselves watching a Chinese astronaut 
land on the Moon when we are years away from a U.S. Mars 
mission and no capability to return to the Moon?
    Mr. Shea. It is possible. I mean, earlier this year, 
officials within the Chinese space program have indicated that 
they want to land a Chinese astronaut on the Moon in the 2030 
time frame, so that is possible, yes, sir.
    Chairman Babin. Okay. Thank you. And I think we'll go to 
the next question. Ms. Edwards, the gentlewoman from Maryland.
    Ms. Edwards. Thank you very much, Mr. Chairman, and thank 
you very much to our witnesses today.
    I want to start with Dr. Lewis. The National Academies' 
Pathways to Exploration report recommended that NASA should 
vigorously pursue opportunities for international and 
commercial collaboration in order to leverage financial 
resources and capabilities of other nations and commercial 
entities. The report goes on to say an international 
collaboration would be open to the inclusion of China and 
potentially other emerging space powers in addition to 
traditional international partners.
    Notwithstanding existing prohibitions on NASA's ability to 
engage in bilateral cooperation with China, do you agree with 
the National Academies' recommendation?
    And then after you answer, I'd like to turn to Mr. Shea, 
because in your testimony, you point to some of the public 
relations wins that China has achieved, making it look like the 
resistance to peaceful kind of cooperation and scientific 
cooperation is--rests with the United States. And so Dr. Lewis 
first?
    Dr. Lewis. Thank you for the question. Essentially, people 
like--other countries like cooperating with the United States. 
We have better technology. We spend a little more money. It's 
more fun to visit here. But to get that cooperation, you 
actually need to have programs that promise immediate and 
tangible results. So I don't think that saying that working 
with the private sector or with other countries by itself is an 
adequate strategy.
    On cooperation with China, just in the last few years, the 
relationship has changed to such a degree that I don't think 
that absent indications from China that they were more 
interested in a serious and peaceful relationship that 
cooperation would be a good idea. We can cooperate with other 
countries if we can show them how working with the United 
States will get them goals in space, but at the moment, with 
the tensions, the bilateral tensions, I don't think cooperation 
with China is in our interest.
    Ms. Edwards. Mr. Shea?
    Mr. Shea. Well, the question reminded me of something 
completely different but very much related: Hollywood. If you 
haven't noticed, the Chinese companies are buying a lot of 
Hollywood. One Chinese company, Wanda Dalian, owns what may be 
the largest or second largest theater chain, AMC, in the United 
States, and they are aggressively pursuing other Hollywood 
acquisitions, so this relates to the public perception. I think 
of--and there's pressure within Hollywood to portray China in a 
benevolent manner, to portray in a very positive manner in 
order to have access to the Chinese market, and I'm thinking of 
two movies that are space-related, American movies, like The 
Martian, where the Chinese come in at the end and----
    Ms. Edwards. Save the day.
    Mr. Shea. --save the day, and the China National Space 
Administration is viewed as a civilian, genteel, you know, 
organization. I'm also thinking of gravity where--the movie 
where the Chinese space station helps Sandra Bullock get back 
to Earth, but also portrays the Russians as creating the 
largest space debris that put the Americans at risk rather than 
the fact that, as alluded to, the Chinese created the largest 
space debris with their antisatellite test in 2007. So I am--
this is linking Hollywood with the space program, and I think 
we could see more of that.
    Ms. Edwards. Dr. Lewis--thank you. Your report titled 
``Space Exploration in a Changing International Environment'' 
states that the international environment for space has changed 
significantly. You pointed to that in your prepared testimony. 
Can you expand on that environment? And then the report also 
goes on to state that the new environment necessitates the 
development of a new framework for international cooperation. 
What would such a framework look like given the end of the 
operational life of the International Space Station in 2024?
    Dr. Lewis. Thank you. The fundamental change in the last 
few years, we are now in a contest, and not just with China but 
with other countries including Russia and maybe in particular 
Russia, and a space strategy, all of our international 
strategies need to recognize this. Now, a contest is not a war, 
it's not a new Cold War, but we are in a conflictual 
relationship, and I don't think that inactivity is the--or the 
perception of inactivity is the right way to deal with this.
    The ISS is an interesting question. When it is deorbited, 
should it be deorbited, the United States could face a 
situation where it no longer has a presence in space. That 
would be really disastrous for our international reputation. So 
we need to think about the ISS. Some of the international 
partners are beginning to ask about the utility of the ISS. We 
really need a new project that they would be willing to fund 
and participate in, one where we could help lead the 
international community because given our technology, our 
budget, our past efforts, we are the default leader if we 
choose to exercise that. So we need a new project to take the 
place of the Space Station or maybe a new way to think about 
the Space Station and the Moon to energize the nations that 
want to work with us. But among those nations, we should be 
very cautious not to work with those who are de facto 
opponents.
    Ms. Edwards. Thank you, Mr. Chairman.
    Chairman Babin. Thank you very much.
    I now recognize the gentleman from Alabama, Mr. Brooks.
    Mr. Brooks. Thank you, Mr. Chairman.
    Today's hearing is entitled ``Are We Losing the Space Race 
to China?'' and if I were to try to summarize your collective 
testimony, as I understand it, you're saying that the United 
States is not losing the race to China but China is gaining 
ground.
    Mr. Shea, would that be a fair summary of your remarks?
    Mr. Shea. I think that's a fair summary. I think over the 
next six years you'll see a lot of activity by China--Moon 
missions, sending a rover to Mars, completing a space station--
while at the same time we won't see similar activity by the 
United States, and we'll see the deorbiting of the ISS 
scheduled for 2024. So within this window of time, I think 
you'll see that the public perception may very well be that the 
Chinese are gaining ground, significant ground, on the United 
States while the United States is standing still.
    Mr. Brooks. Mr. Stokes, did I accurately summarize your 
viewpoint?
    Mr. Stokes. Yes, you did, sir. When you say space race, it 
implies a competition and it implies that we're aware of a 
competition. I just don't see that there's that much of an 
awareness, at least on the U.S. side.
    Mr. Brooks. Mr. Cheng, did I accurately summarize your view 
on this issue?
    Mr. Cheng. Yes, sir, I believe you did.
    Mr. Brooks. And Dr. Lewis, did I accurately summarize your 
view on this issue?
    Dr. Lewis. The thing I wonder about is that we have such a 
successful space program in other areas, why doesn't that 
translate over to the manned space program? And unfortunately, 
when you talk about a race, you're talking about how do you 
keep scores, and the score is determined largely by the manned 
program. So I think, yeah, you did summarize my views.
    Mr. Brooks. I come from a district in the northern part of 
Alabama, home of the Marshall Space Flight Center, and some 
would say it's the birthplace of America's manned spaceflight 
program. I still have about 6,000 people who are employed 
either by NASA at the Marshall Space Flight Center or as 
support contractors for NASA, so in my district, people are 
pretty well educated about NASA and space, and why it is or is 
not important. But that having been said, in practical day-to-
day terms, why should Americans care about whether the Chinese 
are catching the United States of America in the space race, or 
perhaps even one day surpassing us, and whoever would like to 
handle that question, please feel free to interject. Mr. Cheng.
    Mr. Cheng. Sir, politics is as much about perception as it 
is about reality, and in this context here, the People's 
Republic of China has mastery of how to present itself as 
winning, and the issue isn't necessarily to the good folks in 
your district. The problem is how we are perceived in the 
context of an international competition, whether it is 
conflictual or not, and whether or not we are seen as winning, 
and in that regard, a China that scores what is touted by a 
state-run media as winning that falls on receptive ears in 
Africa, in South America, in Southeast Asia, in East Asia winds 
up creating a situation that works against our interests.
    Mr. Brooks. Interesting concept. You're talking then in 
terms of geopolitical politics and perceptions of the different 
nations.
    Mr. Shea or Mr. Stokes or Dr. Lewis, why should the 
American people care that China may be gaining on us, or 
perhaps one day surpassing us?
    Dr. Lewis. One of the lessons from the first Space Race was 
that space is part of being a superpower, it's part of being 
able to influence global politics. It's part of being able to 
shape how the world works. And if I had to choose, I'd rather 
have the United States shape the world than China.
    There is this larger narrative that asks, is the United 
States in decline? And a lot of European outlets, every time 
the economists get a chance, they say the United States is in 
decline. They're wrong, but our inability to perform in manned 
space flights contributes to this narrative that the United 
States is in decline, China will be the most powerful nation in 
2020 or 2030 or sometime. That's not an outcome we want.
    Mr. Brooks. Mr. Stokes or Mr. Shea, why should the average 
citizen, say, in Lexington, Massachusetts, care about whether 
the Chinese?
    Mr. Shea. Well, I agree with what Mr. Cheng and Dr. Lewis 
have said in terms of the diplomatic and geopolitical 
implications but also their economic implications. There's been 
a lot of technology and economic growth generated from a 
successful space program, and we need to keep those benefits 
here in the United States.
    Mr. Brooks. Mr. Stokes, do you have anything to add?
    Mr. Stokes. Very briefly. One of the reasons why the United 
States chose to compete against the Soviet Union, the former 
Soviet Union, in the 1950s, 1960s, 1970s is--part of the 
explanation is that it was viewed as part of a broader 
competition in terms of legitimacy, that between that of a 
Marxist Lenin or the Soviet Communist Party and then free and 
open society, democracy, the United States. I would argue that 
the Chinese Communist Party should be viewed in a similar 
light, and that's just in terms of legitimacy, and that's just 
one of many, many reasons, I think.
    Mr. Brooks. Thank you, Mr. Chairman. I see my time is 
expired.
    Chairman Babin. Thank you, Mr. Brooks.
    I now recognize the gentleman from Virginia, Mr. Beyer.
    Mr. Beyer. Thank you, Mr. Chairman. Thank you all so much 
for coming.
    Mr. Shea, you--in your written and oral testimony, you 
talked about--let me quote--``Beijing has heavily emphasized 
both commercial launch services and satellite exports as the 
space industry has developed, and both activities provide 
China's space industry with revenues, opportunities to measure 
the quality of its products and services against international 
competitors, and industrial development synergies, et cetera.''
    One of the things this Committee has done in a very 
bipartisan way is try to be champions for the development of 
the commercial space industry here in the United States. Does 
China represent a real threat to our commercial space industry 
or is the competition good for our commercial space industry?
    Mr. Shea. Not--it doesn't represent a threat, not at the 
high end, but there is--one of our recommendations last year 
was to look at the ITAR regulations to see whether they're 
overly restrictive and China would have access to technologies 
that are otherwise restricted by ITAR through non-U.S. sources 
so that's one thing we recommended last year.
    But China's satellite launch services and satellite 
business is really for now at least directed at developing 
countries that don't necessarily need the best technology but 
need a cheap solution or cheaper solution. So right now that's 
where the Chinese are focusing their efforts. But they want to 
compete. When we went to Beijing last year, we met with the 
Great Wall Industry Corporation, which performs--state-led 
performs their satellite launch services for international 
customers, and they're very negative about the ITAR 
restrictions, not surprisingly, but they want to have greater 
access to the market.
    Mr. Beyer. Great. Thank you.
    And Dr. Lewis, again, this Committee has tried to really be 
a champion for open data often directed in different political 
things, whether it's the data that the EPA uses to proclaim its 
rules or our support for all the scientists that the U.S. 
Government funds making their data available to other 
scientists. Do you see any of the possibility for open data 
coming from the Chinese investments in space? What will we 
learn from their new telescope, for example, compared to what 
we'll be able to make available to the world from James Webb or 
from Hubble?
    Dr. Lewis. The Chinese in some ways are still ambivalent 
about how to deal with the United States, and there's a strong 
national sentiment that calls for confrontation, but there's 
also a recognition of the benefits of cooperation and the 
strength of the United States, not somebody you might want to 
pick a fight with. So we have opportunities to--maybe niche 
opportunities--I don't know what my other panelists would say--
to cooperate with them. Their scientists are like our 
scientists but their scientists are not always in charge, so 
the Chinese will look for cooperation, Chinese scientists will 
look for cooperation, and perhaps their government will let 
them do it to some extent.
    Mr. Beyer. Is the merging of their version of NASA with 
their version of the Department of Defense the real bar for us, 
that they don't have an independent space agency that's not 
militaristic?;
    Dr. Lewis. No, I don't think so, Congressman. I think that 
it's the larger Chinese policies of pushing back on the United 
States, of challenging us in as many areas as possible. So even 
if it was a purely civilian space agency, they would still be 
answering to President Xi and the party.
    Mr. Beyer. We had the author of The Martian here a few 
months ago, and as you will recall from the book and the movie, 
they turned to China to help when the guy was stranded on Mars. 
Is that just a space fantasy?
    Dr. Lewis. I wouldn't use the book as a guideline for space 
policy. I loved the movie, great movie, but not----
    Mr. Beyer. Mr. Stokes, you know, we've heard a number of 
times that China really lags, you know, they're 40 years behind 
us in terms of getting people into space but their quantum 
experiments, you know, QESS satellite, seem to be an exception, 
that they may be able to beam quantum encrypted information 
between orbiting satellites and ground stations, a 
revolutionary technology. Does this give them a specific 
advantage over us? Are they experimenting in places that we're 
ignoring?
    Mr. Stokes. Sir, when you mentioned quantum satellites, I 
mean, it goes way over my head.
    Mr. Beyer. Oh, okay.
    Mr. Stokes. But in general, my understanding is that the 
end user of the sponsoring organization based in Shanghai under 
the China Academy of Sciences ostensibly civilian. It's 
experimental in nature. What the--I think it's safe to assume 
that it has military applications as well related to encryption 
and other aspects of military capabilities but it's something 
we should watch very carefully, and I'll leave it there.
    Mr. Beyer. All right. Thank you.
    Mr. Chair, I yield back.
    Chairman Babin. Yes, sir. Thank you, Mr. Beyer.
    I now recognize the gentleman from Oklahoma, Mr. 
Bridenstine.
    Mr. Bridenstine. Well, thank you, Mr. Chairman, and thank 
you to all of our panelists. I'm glad to see there's so much 
agreement on our panel today. There's been a lot of talk about 
the Space Race. I want to be clear, we've put men on the Moon. 
We got two rovers currently operating on the surface of Mars. 
We have explored the furthest reaches of the solar system. The 
Space Race is over, and we won.
    The question is now how are we utilizing space and how are 
our near-peer competitors utilizing space, and the question is, 
are we ceding leadership to the Chinese. China is building a 
new station, as has already been identified. It has a Moon 
rover, recently launched the world's quantum communications 
satellite, as we just talked about, which does have very 
specific military implications, and it's expanding its BeiDou 
PNT system. Taking into account that there is no distinction 
between China's peaceful and military space programs, and these 
developments become very alarming quickly. Given their 
notorious lack of transparency, we do not know their true 
intentions with a space station nor do we even know what they 
are currently doing on the Moon.
    Quantum technology is virtually unhackable and would give 
the Chinese a distinct advantage over any current military 
communications that we have as a nation. Utilizing BeiDou gives 
the Chinese an outlet for PNT that is separate from our own 
GPS. As they are developing their own GPS-type constellation, 
they are also developing and undertaking direct ascent 
antisatellite missile capabilities such as the 2007 direct 
ascent test that destroyed a LEO satellite. They are advancing 
spoofing and dazzling technologies and carrying out pernicious 
state-sponsored cyber espionage including a hack of the 
National Weather Service, which compelled us to shut down 
ground stations for two days in this country, deteriorating 
forecasts and putting my constituents in danger, and that 
threatened also the safety of millions of Americans including 
the constituents of everybody on this panel.
    It is clear that China views space as the ultimate high 
ground and they are rapidly making moves to establish 
themselves in a position of strength while also improving their 
ability to deny us the use of space. Given the threat from 
China, we cannot afford to have the DOD doing extraneous 
activities not within its mission. As a point of departure, we 
must give the responsibility for providing space situational 
awareness for commercial and foreign entities to a civil 
agency, namely FAA's Office of Commercial Space Transportation. 
The Department of Transportation and the DOD concurred and 
endorsed this proposal in a recent report ordered by Section 
110 of the Commercial Space bill recently enacted in 2015. I 
urge all of my colleagues to read the Section 110 report.
    Next, we have a chance to pass a NASA authorization this 
year. That bill should direct NASA to utilize the Moon on our 
journey to Mars. Mr. Chairman, I think that's a great idea that 
you said and I think we need to go forward with that. Our 
allies want to go there as does a wide swath of our domestic 
commercial space industry. If we do not, our allies will work 
with China. They're either going to come into our orbit or 
they're going into their orbit--no pun intended.
    Further, the bill should include the formation of a plan 
for a post-ISS world. We cannot afford a gap in LEO platforms 
similar to our gap in human transportation that currently 
exists. Including these policies will go a long way toward 
ensuring that we do not leave a power and leadership vacuum for 
China to fill.
    Unfortunately, NASA under this Administration seems more 
focused on forcing partnership with China than in maintaining 
our leadership. Former Chairman Frank Wolf was a leader on 
this, and our country is grateful for his work. He first 
codified restrictions on cooperation with China in space.
    On top of their belligerent space activity, China is run by 
a brutal regime that imprisons dissidents and persecutes 
minorities. State-sponsored cyber-crimes have robbed our 
companies of billions of dollars of intellectual property, 
doing untold damage to our economy. When does it stop is the 
question?
    Mr. Chairman, any NASA bill should permanently codify the 
restrictions on cooperation with China while also discouraging 
others from partnering with the Chinese. We must treat China's 
actions in space for the threat that they are and ensure that 
we stay ahead of them technologically while preventing any 
vacuums in leadership that they might exploit.
    Mr. Cheng, my question is for you. Given that China 
considers space security equivalent to maritime security, as 
you've kind of already talked about, is it reasonable to expect 
that China will behave in space similar to how it has behaved 
in the South China Sea?
    Mr. Cheng. Representative, obviously it's going to be a 
little bit difficult to build artificial islands in space but I 
think that what we should expect to see is the Chinese 
attempting to redefine the international rules to new sets that 
will basically benefit the Chinese. There have been comments 
about, for example, the requirement that foreign aircraft and 
ships should turn off their radars when operating in China's 
claimed waters. It would not be surprising if there was a 
comparable effort to basically say to operators of space-based 
surveillance systems, you turn them on over China at your own 
risk.
    Mr. Bridenstine. I'm out of time.
    Chairman Babin. The gentleman's time is expired. Thank you.
    I now recognize the gentlewoman from Texas, Ms. Johnson.
    Ms. Johnson. Thank you very much.
    I'd like each member to comment on this. What are the 
implications that China might match or surpass the U.S. 
civilian space capabilities in the near future or the distant 
future? And if they do, what are the key areas, what are the 
implications of that possibility, and also comment, the risks 
and benefits associated with NASA collaborating with China in 
space activities? So let me start with Mr. Shea, but I'd like 
each panel member to comment on that.
    Mr. Shea. Well, I'll answer, Congresswoman, your second 
question first. I agree that we need to be very skeptical with 
cooperative efforts with China. It has been well documented 
they've engaged in a large-scale cyber and other types of 
espionage directed at the United States. Their space program is 
predominantly a military program as we've outlined in our 
report. They're heavily engaged in counter-space activities 
such as antisatellite, kinetic antisatellite missiles, co-
orbital antisatellite systems like robotic arms that could grab 
satellites. They know that the United States is heavily 
dependent on space for its projection of military power so they 
are, you know, engaged in a very robust counter-space program 
to deter us from taking action or to attack our satellites in 
the eventuality of a conflict.
    So, you know, I think it would be--you know, your first 
question, the broader answer, I think it would be an absolute 
shame--I don't see it happening but I think it would be an 
absolute shame if the United States somehow were behind China 
technologically because of all the political implication--in 
space because of the political implications of that, because of 
the economic implications of that for our own country, so I 
don't see it happening, as I said in my testimony. I think over 
the next six years people might perceive the Chinese as gaining 
significant ground, which just reinforces the need for the 
United States to keep its eye on the ball and to have a very 
strong and robust space program.
    Ms. Johnson. Thank you.
    Mr. Stokes. If I can make two quick points. First of all, 
as previously discussed, I wouldn't automatically rule out 
cooperation in certain aspects of space. I would advocate 
looking at our relationship with the People's Republic of China 
for a much broader perspective in terms of competitive sense, 
that is, a competition in universal values and a competition in 
principles. From that perspective, there may be areas of 
cooperation, and if there are areas of cooperation, they should 
be done from the perspective of how it creates leverage for the 
United States in terms of our fundamental interests and our 
fundamental values. That's the first one.
    The second point is, there are other areas of which I'm 
not--I don't sense that we are really competing and China is 
making heavy investments. It's in an area--I'm not sure how one 
would describe it--but near space. That's that domain between, 
let's say, 20 kilometers in altitude and perhaps 100 kilometers 
in altitude. Normally it's an area to get through, for example, 
in terms of returning through the atmosphere to get back to 
Earth, but this is an area where they're making significant 
investments including the establishment of dedicated research 
institutes in the defense industry both in terms of precision--
long-range precision strike weapons systems as well as 
reconnaissance systems able to linger in that particular 
domain.
    Mr. Cheng. One of the great areas of American strength is 
our private sector, and we are seeing with folks like SpaceX 
and Blue Horizon an interesting revival of the private sector's 
interest in space. Where they are likely to go in terms of 
innovation I suspect is something the Chinese are desperately 
afraid of because they understand that companies are more 
flexible and can often be driven harder because of the vision 
of their directors. At the same time, as a result, one suspects 
that the Chinese are likely to therefore try and, quote, 
unquote, partner with our private sector or simply buy, you 
know, controlling interests in stock and the like. In that 
regard, I think that one of the areas that we need to be wary 
of is quote, unquote, collaboration between Chinese state-owned 
enterprises and our private sector.
    Dr. Lewis. Thank you for the question. You know, just to 
maybe put this a little bit in perspective, the real issue here 
is who lands first, and I don't care if it's on the Moon or on 
Mars but when you see that picture, do you want the picture of 
the astronaut holding the flag to be holding an American flag 
or a Chinese flag. We all remember the picture from the Apollo 
program. So if we could land on Mars before China can go to the 
Moon, great, let's do it, but I don't feel confident in saying 
that, who lands first.
    On cooperation with the Chinese, and this might be the 
first question where the panel sort of disagrees a little bit 
so I'm glad we finally got there, they're hostile but they're 
also pragmatic. They can be engaged. You can come to 
arrangements with them. I think the agreement on commercial 
cyber espionage is a good example of that. They are pragmatic 
in a way that the Russians are not but we need engagement and 
agreement on the rules for how we will operate in space before 
we can cooperate. The Chinese will test us, and right now if we 
don't push back, cooperation is not in our interest. It's a 
complicated relationship but it's one where we have many of the 
advantages, particularly in technology, and in most of the 
areas of space, we just do better. So the question is, how do 
we take advantage of our leadership? How do we come up with a 
strategy to lead, and not only with the rest of the world but 
with China?
    Ms. Johnson. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Babin. Thank you.
    I recognize the gentleman from California, Mr. Knight.
    Mr. Knight. Thank you, Mr. Chair.
    You know, competition is part of life. I think that America 
has led in this endeavor for many, many years. But there's so 
much that is going on right now with the technological advances 
that are happening today. There are so many things that we can 
do.
    Back in the early 1960s, we were trying to go to the Moon 
because I do believe it was part of the competition. We also 
had many programs that were going on in the early 1960s like 
maybe the X-20 Dinosaur program that would've been the first 
space shuttle, and we decided not to do that. We decided to go 
to the Moon, and which is the goal that everyone looks to 
today.
    But the point is, is we always have an awful lot of things 
that are happening, and I think the Chinese are now discovering 
that maybe if they put their goals on some finite situations, 
they might be able to beat us at certain things so we broke the 
sound barrier first, we were on the Moon first. We did all of 
these things first, and they might be able to do some of these 
finite goals and we might be looking at a hundred different 
goals.
    So is that what we're kind of looking at today that 
competitively, look, we want to be on Mars first, we want to do 
this first, or are we looking at the expanse of space 
exploration and achieving some of these goals for a much bigger 
product, a much bigger program?
    Mr. Shea. I think that's a fair point, Congressman. I think 
the Chinese, it's my understanding that if they fulfill their 
goal of landing an unmanned spacecraft on the Moon's dark side 
before 2020, they'll be the first country to have done that. So 
you're right, they may be seeking smaller niche goals, maybe 
not the big-picture goals but to proceed with a domestic 
audience seeking goals that have maybe not as powerful but 
goals nonetheless.
    Mr. Knight. And I'll jump in just real quick. I want to 
thank the Chairman for talking about one of the programs that's 
in my district, the SOFIA program, that is an American-German 
kind of connection there that we have a telescope that goes 
into space and goes above the water vapors and we can do that 
type of exploration on a daily basis and change the technology 
on a daily basis. Is that something that we should be better 
having and having better connections with other countries that 
can help us, not just with money but with technology, with all 
of the things that we're looking at to advance and maybe 
advancing with a connection to other countries and saying this 
is what we're trying to get to. Mr. Cheng, go ahead.
    Mr. Cheng. Representative, leadership is a matter of not 
simply saying we are going to head in a particular direction 
but being able to persuade others to join us, and as my fellow 
panelists have also pointed out, other nations do want to join 
us. It does entail, however, having a vision, having an 
objective, having a target, and having the persistence, which 
is the one great advantage the Chinese have. Their manned space 
program dates back at least to the late 1980s and it has 
enjoyed consistent top-level support through multiple changes 
of leadership. Whether or not we have that persistence is 
something the Chinese are looking at but also our allies, and 
so I would hope that the SOFIA program and other programs will 
be the start, not the end of that kind of cooperation.
    Let me also just note very quickly that we are the main 
explorer of the outer solar system. We have sent more, I 
believe, probes out beyond Mars than any other nation or even a 
group of nations combined, and that too is an area that could 
be one of leadership and encouraging cooperation with our 
friends and allies.
    Dr. Lewis. Maybe to follow up, thank you for the question. 
I think the real issue is, you know, what do we want to do 
about exploration beyond low-Earth orbit, and low-Earth orbit 
we know how to do it. It's great. But what do we get out of 
LEO, right? And what's the best way to do that? And there's 
some issues that I think fall under the purview of this 
Committee but also the larger discussion. Do we focus on manned 
missions or do we focus on robotic? We've had tremendous 
success in robotic. Do we go for Mars or do we go for the Moon? 
I tend to like the Moon because I know we can get there. Mars, 
it's kind of a long shot but it's a legitimate question. And 
finally, we need to rethink the outlines of cooperation both 
with our European partners, with the other space-faring 
partners but maybe also with China, and in that sense, to your 
original point, I think having a clear goal helps. Having a lot 
of efforts may not be the best way to achieve cooperation.
    Mr. Knight. Thank you.
    Thank you, Mr. Chairman. I yield back.
    Chairman Babin. Yes, sir.
    I now call on the gentleman from Colorado, Mr. Perlmutter.
    Mr. Perlmutter. Thanks, Mr. Chair, and gentlemen, thank you 
for your testimony today. I really do appreciate the panelists 
almost nodding as each of you is speaking because you all seem 
to be pretty much on the same page, and I think for the Members 
up here, very similar kind of view of this, and so I appreciate 
your testimony. I'm not often on the same page as the Heritage 
Foundation, I can tell you that, Mr. Cheng.
    Mr. Bridenstine--so we agree, this panel on a lot of the 
space exploration components and this potential for a space 
race that we're not winning. We've been able to win in the 
past, and Mr. Bridenstine is pretty single-minded in talking 
about commercial space and the ability to expand that and the 
potential innovation that our private sector brings to, you 
know, exploring at least low-Earth orbit if not farther. 
There's a thing I'm pretty single-minded about, and Mr. Knight 
will start laughing at me, but 2033, okay, so we've had 
testimony by NASA engineers and other experts that 2033 orbits 
of Mars and Earth are in pretty good alignment to save a lot of 
space travel time, and that 17 years helps us put the building 
blocks in place to get to Mars, get our astronauts to Mars, so 
human spaceflight, Dr. Lewis, which is what you've been talking 
about, and one of those building blocks certainly could be 
going back to the Moon. Now, I'm not the engineer, I'm not the 
scientist, I don't know the best way to do it, but I do know as 
a Member of Congress, we need to have long-term mission that we 
as Members of Congress stand behind from Administration to 
Administration.
    So Mr. Cheng, to your point, we've seen different 
Administrations change how we looked at our space program. So I 
think we do have a potential for a mission that is long-term in 
nature that will continue to add to our expertise and our 
leadership in space.
    Here's my question. We do--we've had testimony by prior 
panels that one of the last places where we've had some decent 
diplomatic dialog between ourselves and the Russians has been 
with respect to our scientists and our space programs, continue 
to use their rockets to help us get to the Space Station. Is 
there the potential for us to have that kind of dialog with the 
Chinese scientists? Is it--you know, you've all used words like 
``wary'' and ``skeptical.'' You've used ``cooperation'' and 
``competition,'' ``hostile'' and ``pragmatic.'' Is there a way 
for us to work with their scientists to really start broadening 
cooperation, if you will? And I'll open it to anybody on the 
panel if you feel like answering.
    Mr. Stokes. If I can just draw one thread that you put out. 
You mentioned about the United States using Russian launch 
vehicles for some of our satellites and space programs. Of 
course, I think it's well known that we formerly did both 
satellites to the People's Republic of China and also licensed 
some of our companies to be able to use Chinese launch vehicles 
in terms of delivering payloads into space. That was restricted 
in 19--let's call it 1996, and if I'm not mistaken, it 
continues to be restricted until today. I mean, this is 
something that every once in a while it's raised again in terms 
of allowing the licensing of U.S. satellites and in terms of 
sales of satellites and also allowing U.S. companies to 
contract launch vehicle providers. The main restrictions that 
requires, if I'm not mistaken, a munitions license and there 
are restrictions under the 1989 Tiananmen sanctions that exist 
until today and perhaps for good reason. But that's certainly 
something that could be looked at again, I suppose. It's not 
cooperation but it's actually licensing and a technical issue.
    Mr. Shea. You know, in our report, I think in my testimony 
as well, we outlined--the Wolf restriction doesn't prohibit all 
sorts of interactions between Chinese scientists and U.S. 
scientists so there are some interactions that are not covered 
by the Wolf law. We do cooperate in collision avoidance. My 
colleagues could correct me. There's debris. U.S. space 
operators inform their counterparts in China when debris is 
getting near a Chinese satellite or other--so we do cooperate 
in that sense.
    You raised the Russians. I mean, one thing I would be 
looking at is increased China-Russian cooperation. We see that 
here on planet Earth, China and Russia engaged in joint naval 
exercises in the South China Sea recently, so I could see 
China-Russia cooperation on joint rocket engine development, 
maybe Russian participation in the Chinese Tiangong-2, Chinese 
space station, going forward. So I'd keep an eye on that well.
    Mr. Perlmutter. Okay. Thank you.
    And I just think there's this yin and the yang going on 
between competition and cooperation to the degree the 
competitive juices of America start flowing, I think that's to 
the benefit of all of us but also cooperation just to keep 
peace in our time doesn't hurt us.
    I yield back.
    Chairman Babin. Thank you, Mr. Perlmutter.
    Now I recognize the gentleman from Ohio, Mr. Davidson.
    Mr. Davidson. Thank you, Mr. Chairman.
    Mr. Cheng, in your comments you mentioned a Chinese program 
called One Satellite, Two Bombs. What does that mean and what 
does it stem from?
    Mr. Cheng. In the 1960s, China under Mao Zedong basically 
said that in order to be a competitive major power, China first 
off needed to develop nuclear weapons, and in fact, there's all 
sorts of rather breathtaking language by Mao about how the 
Chinese people will eat grass if necessary. But what that led 
to was in 1964 on its own without external assistance, China 
exploded its first atomic bomb. In 1967, it exploded its first 
hydrogen, or fusion bomb, and in 1970 it launched its first 
satellite, the Dong Fang Hong I, two bombs, one satellite. It 
is now embodied in Chinese terminology as evidence of two 
things: one, how far China is prepared to go in order to 
achieve strategic objectives, and two, the self-reliance. Now, 
self-reliance doesn't mean that you don't do cyber espionage 
and other things but it does mean that at the end of the day, 
China sets goals and they will achieve them.
    Mr. Davidson. Thanks for that.
    One of the ways that the United States collaborated with 
China with commercial technology, pseudo-commercial technology, 
was to help them launch multiple low-Earth orbit satellites off 
of one launch vehicle. Is anyone familiar with this program 
wherein the early 1990s almost immediately after removing 
release-of-sensitive-technology authority from Defense and 
giving it to Commerce, we helped China develop this technology? 
Was that good collaboration?
    Mr. Stokes. If I can take the first hack at it, that was 
the Motorola program, if I'm not mistaken.
    Mr. Davidson. Iridium, I think.
    Mr. Stokes. The Iridium, yeah, the Iridium program. In 
particular, I believe it was certifying their what's called 
smart dispenser that has direct application, of course, to a 
MIRV capability, and if you look at the timeline, research and 
development timelines that match up, it's kind of hard to not 
conclude that there was a connection.
    Dr. Lewis. It's difficult to answer this question in an 
unclassified setting but it was not purely advantage to China.
    Mr. Davidson. Okay. Mr. Chairman, could I yield 30 seconds 
to my colleague, Mr. Bridenstine?
    Chairman Babin. Yes, sir.
    Mr. Bridenstine. I just wanted to directly respond to 
something that my good friend, Mr. Perlmutter from Colorado, 
said, which was the cooperation with the Russians and using 
their launch capabilities for our civil space programs. It was 
an article in Aviation Week and Space Technology probably about 
seven months ago. I read the defense minister for Russia stated 
very clearly--they were asking how are you financing your 
military communication, space-based communications programs, 
how are you financing your military remote sensing and imagery 
capabilities, and he said very clearly in the article that 
they're financing it with off-balance-sheet financing from 
expenditures from launching foreign satellites and astronauts. 
So when we cooperate in that way, we have to be really clear 
about what we're doing: we are financing the defense and 
military capabilities of the Russians. And I just wanted to get 
that on the record.
    Mr. Davidson. Thank you.
    And I want to tie that together in terms of collaboration, 
sometimes perhaps some ways that have benefited us, some ways 
that have not been beneficial to us. Clearly, the whole panel 
has talked a lot about soft power, and I'm curious, where is 
China particularly successful with existing space powers like 
Russia, like European countries, but also with non-space 
powers. So how has China been successful with their use of soft 
power in their space program?
    Mr. Shea. Well, China is using space--I think Mr. Cheng 
mentioned this earlier. China is using space as part of a 
broader relationship with countries, less-developed countries. 
With Pakistan, it provides space assistance but it's tied into 
this China-Pakistan economic corridor which is on the ground. 
China is building out something called One Belt, One Road 
initiative, and it intends to provide BeiDou coverage to most 
One Belt, One Road countries by 2018. So space is a component 
of a broader foreign policy diplomatic outreach to less-
developed countries.
    Mr. Davidson. Thank you, and I apologize because I have 
very little time, but I was glad you connected the One Belt, 
One Road, and Mr. Cheng in particular referenced China's 
ability to stay on a unified, coherent national strategy, and I 
would argue that since the end of the Cold War, they have been 
the single nation that has done that with success.
    Mr. Chairman, my time is expired.
    Chairman Babin. Yes, sir. Thank you very much, Mr. 
Davidson.
    Mr. Perlmutter. Mr. Chairman, may I----
    Chairman Babin. You sure can. Go ahead.
    Mr. Perlmutter. Thanks. I'd like to just say to my friend 
from Oklahoma, I agree. I wasn't talking about the fact we're 
paying for these launch vehicles but to have a back channel for 
diplomatic purposes sometimes is very important if the 
political systems between the two countries aren't working. So 
scientists sometimes lend us that back channel. That's really 
what I intended to convey.
    Thank you, and I yield back.
    Chairman Babin. Thank you, Mr. Perlmutter.
    This concludes this hearing. It's been very informative, 
very educational. I want to thank the witnesses profusely for 
their valuable testimony and the members for your questions. 
The record will remain open for two weeks for additional 
comments and written questions from the members.
    So this hearing is adjourned.
    [Whereupon, at 11:36 a.m., the Subcommittee was adjourned.]

                               Appendix I

                              ----------                              


                   Answers to Post-Hearing Questions


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                               Appendix I

                              ----------                              


                   Additional Material for the Record

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


                                 [all]



</pre></body></html>
